<html>
<title> - THE HONG KONG EMERGENCY: SECURING FREEDOM, AUTONOMY, AND HUMAN RIGHTS</title>
<body><pre>[Senate Hearing 116-142]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-142

                     THE HONG KONG EMERGENCY: SECURING 
                    FREEDOM, AUTONOMY, AND HUMAN RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,
                 AND INTERNATIONAL CYBERSECURITY POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________
  
                         SEPTEMBER 26, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-678 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
MARCO RUBIO, Florida                 EDWARD J. MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CHRISTOPHER A. COONS, Delaware
JOHNNY ISAKSON, Georgia              JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  TOM UDALL, New Mexico

                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page
Gardner, Hon. Cory, U.S. Senator From Colorado...................     1
Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     2
Law Kwun-Chung, Nathan, Founding Chairman, Demosisto, Hong Kong..     4
    Prepared statement...........................................     6
Yates, Stephen J., Chief Executive Officer, DC International 
  Advisory, Idaho Falls, Idaho...................................     7
    Prepared statement...........................................     9
Martin, Michael F., Specialist in Asian Affairs, Congressional 
  Research Service, Washington, DC...............................    13
    Prepared statement...........................................    15

                                 (iii)

  

 
 THE HONG KONG EMERGENCY: SECURING FREEDOM, AUTONOMY, AND HUMAN RIGHTS

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                               U.S. Senate,
       Subcommittee on East Asia, the Pacific, and 
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:45 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Young, and Markey.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to the fourth hearing of the Senate 
Foreign Relations Subcommittee on East Asia, The Pacific, and 
International Cybersecurity Policy in the 116th Congress.
    Today we will hold an emergency hearing to address the 
issues of freedom and human rights in Hong Kong.
    For over 5 months, millions of brave Hong Kongers have been 
out on the streets demonstrating for freedom, freedom from 
coercion, freedom for authoritarianism, and freedom to choose 
their future. And they have already succeeded to a great extent 
not only because the Hong Kong authorities realize the folly of 
the so-called extradition bill--they have now withdrawn it and 
belatedly offered dialogue with civil society--but also because 
today on the fifth anniversary of the Umbrella Movement, the 
demonstrators are showing to the world that democracy on 
Chinese soil is alive and well. And it is perfectly compatible 
with Chinese culture and history.
    As we celebrate their bravery and determination today, let 
us hope and pray that it will lead to revitalization of 
democratic institutions throughout Asia. Promoting democracy 
and human rights will be vital for the United States to succeed 
in the Indo-Pacific and to prevail in the era of the so-called 
great power competition with Russia and China. These values 
differentiate the United States from the competition. These 
values are just and right, and they are worth fighting for.
    Today we are privileged to hear from those who are on the 
front lines for the battle for freedom, autonomy, and human 
rights. The United States should support their cause 
unreservedly.
    With that, I will turn it over the Senator Markey for his 
opening statement.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and 
thank you for convening this very important hearing and for 
your continued partnership on the subcommittee.
    And I want to thank our witnesses for their willingness to 
participate today, especially to discuss such a pressing set of 
issues regarding the future of Hong Kong.
    Eighty-five thousand Americans live in Hong Kong and 1.3 
million U.S. citizens visited or transited in 2018. According 
to the State Department, Hong Kong was the ninth largest 
destination for exports of U.S. goods, and according to the 
most recent data, U.S. exports to Hong Kong supported 188,000 
United States jobs.
    But all is not well in the Special Administrative Region. 
The Chinese Government continues to intervene in Hong Kong 
affairs, and in the process, the degree of autonomy granted to 
Hong Kong under ``One Country, Two Systems,'' the very autonomy 
that warrants special treatment by the United States under the 
Hong Kong Policy Act, is eroding. And it is eroding 
significantly. The Chinese Government backtracked on its 
commitment to allow universal suffrage. The resulting Umbrella 
Movement showed how strong-willed Hong Kong residents are. The 
police cracked down but the protestors did not waiver in their 
desire for freedom and for democracy.
    And when the extradition bill was proposed earlier this 
year, the people of Hong Kong took to the streets once again. 
Hong Kongers say they have looked to the United States as a 
beacon of freedom, but it is we who are moved by their brave 
examples. Sensing their promised autonomy slipping away and 
surely aware that authoritarians seek to repress them, the 
people of Hong Kong are reminding the world that democratic 
aspirations are universal.
    Some call the protest leaderless, but as Hong Kong's own 
Johnson Yeung has suggested, everyone who risks their well-
being through peaceful pro-democracy protests is showing 
leadership. In my view the streets of Hong Kong are filled with 
leaders.
    The authorities have responded to popular action with 
police misconduct. The police must cease their overreach and 
provide timely access to lawyers, to family members, and 
medical professionals for persons in custody. And we in the 
United States must do what we can to prevent U.S. crowd control 
equipment from making its way into the hands of repressive 
forces.
    We should also be aware that media organizations based in 
mainland China are obscuring protestors' demands by suggesting 
that those in the streets seek only destruction. Isolated 
instances of violence amplified by authoritarian media can 
undercut the protests by fueling this narrative.
    As we speak, Facebook is still allowing Chinese state-run 
organizations to purchase advertisements that cast protestors 
as extremists. Social media organizations must not be allowed 
to be used in a way that enables repression.
    Whatever obstacles are put in their way, the people of Hong 
Kong have demonstrated their commitment to achieving democratic 
rule, including free and fair elections.
    While it was up to the residents of Hong Kong to take the 
lead in the fight for their fundamental human rights, we in the 
United States can and we should make clear what values we want 
to see in the world.
    So I was proud to be an original cosponsor of the Hong Kong 
Human Rights and Democracy Act, which passed out of the Senate 
Foreign Relations Committee yesterday. And I was pleased that 
the House passed its version on the same day.
    We have numerous steps yet to go, but I am hopeful that 
Congress can speak with one voice on the need for Hong Kong to 
retain its autonomy and for the citizens to enjoy all of the 
liberties and rights which they deserve. After all, the United 
States simply cannot afford to cede leadership on promoting 
freedom around the world.
    So, once again, Mr. Chairman, I thank you, and I look 
forward to exploring these issues with our witnesses.
    Senator Gardner. Thank you, Senator Markey.
    And thank you to all the witnesses for being here today. We 
kindly ask you to limit your verbal remarks to no more than 5 
minutes, and your full written statements will be included in 
the record.
    Our first witness is Mr. Nathan Law, who is the Founding 
Chairman and current standing committee member of the pro-
democracy organization, Demosisto. During the 2014 Umbrella 
Movement, Mr. Law was one of the five student leaders who 
debated on live television with then Chief Secretary for 
administration Carrie Lam. In 2016, Mr. Law became Asia's 
second youngest--excuse me--became Asia's youngest every-
elected. It was me who was the second youngest Member of the 
Senate. You are the youngest ever-elected lawmaker when you won 
a seat in the Hong Kong Legislative Council, later disqualified 
and imprisoned for several months.
    Mr. Law, welcome to the Senate Foreign Relations Committee, 
and I am privileged to have you testify before us, and we 
cannot thank you enough for your commitment to freedom.
    We are also joined by Steve Yates, our second witness. Mr. 
Yates is currently the Chief Executive Officer of the DC 
International Advisory, a strategic risk and public policy 
firm. Previously Mr. Yates served in the White House as Deputy 
Assistant to the Vice President for National Security Affairs 
from 2001 to 2005. During his tenure in government, he provided 
direct support to the Vice President and his national security 
advisor for key White House deliberations. Notably Mr. Yates 
testified before this subcommittee on the same topic on July 1, 
1999, or 2 years after the handover of Hong Kong to mainland 
China in 1997.
    Welcome, Mr. Yates. We look forward to hearing your 
perspective especially with the benefit of the 20-year 
hindsight from your last appearance before this committee.
    Our third witnesses today is Dr. Michael Martin, who is a 
Specialist in Asian Affairs at the Congressional Research 
Service, the Library of Congress. Dr. Martin is a leading 
national authority on Hong Kong both from his work at CRS and 
having lived and worked in Hong Kong for a number of years. 
From 1994 to 1998, Dr. Martin was the Assistant Chief Economist 
for the Hong Kong Trade Development Council. Prior to his time 
with the council, Dr. Martin taught at Hong Kong Baptist 
University, Doshisha University in Japan, Colby College, and 
Tufts University.
    Welcome, Dr. Martin. I look forward to hearing from you as 
well.
    Mr. Law, you may begin your statement.

    STATEMENT OF NATHAN LAW KWUN-CHUNG, FOUNDING CHAIRMAN, 
                      DEMOSISTO, HONG KONG

    Mr. Law. Chairman Gardner, Senator Markey, and Senator 
Young, good morning.
    This day 5 years ago, September 26 of 2014, marked the 
beginning of the Umbrella Movement, which saw hundreds of 
thousands of Hong Kong people occupy major throughways for 3 
months in pursuit of democracy. It was our response to Chinese 
leaders who broke their promise of universal suffrage. The 
movement then escalated as the police responded by firing 87 
canisters of tear gas against peaceful protestors.
    The movement was ultimately unsuccessful in realizing our 
dreams of a democratic society. As a student leader, I would 
even subsequently be imprisoned for my role. But I distinctly 
remember that on the last day of our occupation, fellow 
protestors hung a large banner proclaiming ``We Will Be Back'' 
on Harcourt Road just outside the government headquarters. Five 
years later, during this past summer of discontent, we have 
made good on that promise.
    Public anger in Hong Kong exploded in early June this year 
against a proposed extradition law that would have allowed 
criminal suspects of Hong Kong to face trial in China where the 
legal system operates at the behest and mercy of the ruling 
Communist Party. But with more than 2 million people marching 
down through the streets, we exerted an unprecedented amount of 
pressure to the government and forced Chief Executive Carrie 
Lam to first suspend the bill in mid-June before fully 
withdrawing it early this month.
    But our struggle has moved far beyond a single bill or a 
particular leader. What we demand is a systematic reform in a 
way that honors the original spirit of the ``One Country, Two 
Systems'' framework. Our prosperity and dignity as a society 
have been built on the success of the rule of law, the 
protection of human rights, and freedoms, and our autonomy. But 
without democracy, these values and status are extremely 
fragile for if the law is not written by the people, there is 
no genuine rule of law. If the government is not formed by the 
people, there is no real self-government, which is the 
authentic meaning of autonomy.
    The fact that I as the youngest lawmaker in Hong Kong's 
history was forcefully unseated by Beijing is a testimony to 
the--of both the rule of law and our autonomy. We need 
democratic reform now.
    Instead of alleviating the tension, the Hong Kong 
Government has been hiding behind the police force. To make 
matters worse, thugs have been involved in committing 
indiscriminate violence against not just protestors but random 
passersby while the police turned a blind eye to the atrocity.
    What I do wish to stress is that the apparent collusion 
between the Hong Kong police force and the pro-Beijing 
gangsters have ignited public anger. These actions constitute a 
gross violation of our universal human rights.
    The police have shot protestors in the head, resulting in 
at least three cases of permanent eye damage. First aiders have 
been blocked when they have tried to apply treatment on the 
injuries. Some have even been arrested. Once detained, 
protestors have to face torture in the police stations where 
access to lawyers is increasingly difficult. The ``New York 
Times'' recently highlighted one story. A protestor's shoulder 
joint was fractured into four pieces and detached from the bone 
below. Many others suffered concussions while police were 
brutally assaulting them during the arrest. They were then 
transferred to the notorious San Uk Ling Holding Centre close 
to the Hong Kong-China border. According to a report by Amnesty 
International, subsequent rounds of torture took place in that 
remote center, which is hardly accessible to the public, 
journalists, or even lawyers.
    Beyond physical abuse, there is a prevalent dangerous 
mentality of dehumanization among the police. They frame 
protestors as cockroaches and objects. This intensifies their 
brutality by reducing their sympathy, which was the same 
tactics applied during the Rwandan genocide. The level of 
atrocity obviously is not comparable, but the essence of 
dehumanization should be equally alarming.
    Even though the police brutality is astonishing and the 
government must be held accountable for this misbehavior, the 
crux of the problem is the overreach of the Chinese Communist 
Party. The international community should join hands with us 
and urge Beijing to honor the Sino-British Joint Declaration of 
1984, which governs the transfer of sovereignty and the 
application of ``One Country, Two Systems'' in Hong Kong. China 
in recent years has repeatedly declared the treaty invalid as 
an excuse to not fulfill its obligations because they have been 
overtly and consistently violating the instructions in the 
treaty.
    Earlier this week, in his address to the United Nations 
General Assembly in New York, President Donald Trump 
proclaimed: ``The world fully expects that the Chinese 
government will honor its binding treaty made with the British 
and registered with the United Nations in which China commits 
to protecting Hong Kong's freedom, legal system, and democratic 
ways of life. How China chooses to handle this situation will 
say a great deal about its role in the world in the future.'' I 
welcome this as a sign that the administration is aware of the 
Chinese Government's record of breaking promises just as a new 
round of trade talks have resumed.
    But concrete actions are of vital importance. Yesterday, 
both the House Foreign Affairs Committee and the Senate Foreign 
Relations Committee have passed the Hong Kong Human Rights and 
Democracy Act unanimously. This piece of legislation will now 
move ahead for consideration on both the House and Senate 
floors. I am, therefore, speaking today to seek every Senator's 
support. Hong Kongers cannot stand alone in this great battle 
against the largest authoritarian power in the 21st century.
    As we approach the 1st of October, which marks the 70th 
anniversary of the founding of the People's Republic of China, 
I hope to remind Beijing that hearts and minds cannot be simply 
bought off with heavily orchestrated ceremonies. Hong Kong 
people will continue their struggle for autonomy and democracy. 
You could demonstrate your bravery by honoring your own words 
or else you will only convey your cowardice by committing yet 
another crackdown on the people. The world of free societies is 
watching you.
    Thank you.
    [The prepared statement of Mr. Law Kwun-Chung follows:]

              Prepared Statement of Nathan Law Kwun-Chung

                                opening
    This day 5 years ago, September 26, 2014, marked the beginning of 
the Umbrella Movement, which saw hundreds of thousands of Hong Kongers 
occupying major throughways for 3 months in pursuit of democracy. It 
was our response to Chinese leaders who broke their promise of 
universal suffrage that they made with both the British government and 
the Hong Kong people almost four decades ago. The movement then 
escalated as the police responded by firing 87 canisters of tear gas 
against peaceful protesters, including myself.
    The movement was ultimately unsuccessful in realizing our dreams of 
a democratic society. As a student leader, I would subsequently even be 
imprisoned for my role. But I distinctly remember that on the last day 
of our occupation, fellow protesters hung a large banner proclaiming 
``We Will Be Back'' on Harcourt Road, just outside the government 
headquarters. Five years later, during this past summer of discontent, 
we have made good on that promise.
                        purpose of the movement
    Public anger in Hong Kong exploded in early June this year against 
a proposed extradition law that would have allowed criminal suspects 
Hong Kong to face trial in China, where the legal system is designed to 
serve the interests of the ruling Communist Party. But with more than 2 
million people marching in the streets, we exerted an unprecedented 
amount of pressure to the government and forced Chief Executive Carrie 
Lam to first suspend the bill in mid-June, before fully withdrawing it 
early this month.
    But our struggle has moved far beyond that. Our prosperity and 
dignity as a society are built on the success of the rule of law, the 
protection of human rights, and freedoms. Hong Kongers clearly 
understand that these values are extremely fragile and are being eroded 
by Beijing. Our autonomy is the cornerstone of the ``One Country, Two 
Systems'' constitutional framework, and that is now seriously 
threatened.
                            police violence
    Instead of alleviating the tension, the Hong Kong government has 
been hiding behind the police force. To make matters worse, thugs with 
ties to organized crime have also been involved with inciting violence 
against not just protesters but random passersby just as the police 
look away. My friends Joshua Wong and Denise Ho have already explained 
in greater detail these well-documented instances last week in a 
different hearing held by the Congressional-Executive Commission on 
China, chaired by Congressman Jim McGovern.
    What I do wish to stress is that the apparent collusion between the 
Hong Kong police force and pro-Beijing gangsters, facilitated by the 
state apparatus, have ignited public anger. These actions constitute a 
gross violation of internationally recognized human rights.
    The police have shot protestors in the head, resulting in at least 
three cases of permanent eye damage. First aiders have been blocked 
when they tried to apply treatment on injuries; some have even been 
arrested. Once detained, protesters have had to face torture in police 
stations, where access to lawyers is increasingly difficult. The "New 
York Times" recently highlighted one story: a protester's shoulder 
joint was fractured into four pieces and detached from the bone below; 
many others suffered concussions. They were then transferred to the 
notorious San Uk Ling Holding Centre close to the Hong Kong-China 
border, where, according to a report by Amnesty International, another 
round of torture took place, far removed from the cameras.
    There is a prevalent but dangerous mentality among the police: They 
dehumanize protestors and frame them as ``cockroaches'' and 
``objects.'' This intensifies their brutality by reducing their 
sympathy, which was the same tactics applied during the Rwandan 
genocide. The level of destruction, obviously, is incomparable, but at 
the core of this is what to do with monopolized violence.
                         goals and action items
    Even though the police brutality is astonishing, and the government 
must be held accountable for this misbehavior, the crux of the problem 
is the overreach of the Chinese Communist Party. The international 
community should join hands with us and urge Beijing to honor the Sino-
British Joint Declaration of 1984, which governs the transfer of 
sovereignty and the application of ``One Country, Two Systems'' in Hong 
Kong. China in recent years has repeatedly declared the treaty 
``invalid'' as an excuse to omit its obligations, but that is only 
because they do not wish to be held accountable for what is now 
happening.
    Earlier this week, in his address to the United Nations General 
Assembly in New York, President Donald Trump proclaimed: ``The world 
fully expects that the Chinese government will honor its binding treaty 
made with the British and registered with the United Nations in which 
China commits to protecting Hong Kong's freedom, legal system, and 
democratic ways of life. How China chooses to handle this situation 
will say a great deal about its role in the world in the future.''
    I welcome this as a sign that the administration is aware of the 
Chinese government's record of breaking promises just as a new round of 
trade talks have resumed. But concrete actions are vital. Yesterday, 
both the House Foreign Affairs Committee and the Senate Foreign 
Relations Committee have passed the Hong Kong Human Rights and 
Democracy Act unanimously. This piece of legislation will now move 
ahead for consideration on both the House and Senate floors. I am 
therefore speaking today to seek every Senator's support. Hong Kongers 
cannot stand alone in this great battle against the largest 
authoritarian power in the 21st century.
    As we approach October 1, which marks the 70th anniversary of the 
founding of the People's Republic of China, I hope to remind Beijing 
that its crackdown on the freedoms of its own people, not its heavily 
orchestrated celebrations, will be watched around the world.

    Senator Gardner. Thank you, Mr. Law. Thank you for your 
testimony, your courage, and for being here today.
    Mr. Yates?

        STATEMENT OF STEPHEN J. YATES, CHIEF EXECUTIVE 
     OFFICER, DC INTERNATIONAL ADVISORY, IDAHO FALLS, IDAHO

    Mr. Yates. Thank you, Mr. Chairman, distinguished members 
of the committee. It was an honor and privilege to appear 
before this subcommittee 20 years ago. What I have lost by way 
of hair and other kinds of interesting experiences, hopefully I 
have added with some perspective that might inform our 
conversation going forward.
    I think this is an incredibly important conversation, one 
that I hope is national, one that I hope continues to be 
bipartisan. I think this leads into one of the most important 
strategic issues we face as a nation today.
    I will begin basically where Nathan left off with the 
remarks the President gave at the U.N. General Assembly. I 
think it frames the reason why what is happening in Hong Kong 
has strategic value in a way that I think can be supported on a 
bipartisan basis and also among most Americans, noting that how 
China chooses to handle the situation in Hong Kong tells us a 
great deal about the kind of country it is becoming.
    But I think there are two key tests that are right before 
us. Number one, can Beijing be trusted to honor international 
obligations? Number two, can the People's Republic of China 
peacefully coexist with any free society? And how they are 
handling the situation in Hong Kong, I would have to say, is 
not reassuring on either of those tests.
    In the interest of time and recognizing the full statement 
has been in the record, I will move ahead into some of the 
things that I think have changed in the 22 years since the 
handover that affect some of the assumptions that our 
government had, that some of our partners around the world had 
about what to expect in this transition of sovereignty from 
Britain to China.
    First, China's self-image has changed profoundly over the 
last 20 years. In 1997, China was a humbler nation. It had been 
humbled by the massacre of its own people in Tiananmen Square, 
but also by an economic recession that it needed to build out 
of in the wake of international sanctions and their own 
economic misdeeds. China today is not a humble nation, and that 
is an interesting factor in how we might gauge our expectations 
of how they see their interests in Hong Kong.
    Xi Jinping is a different kind of leader. We had been led 
over the years to look at the Deng Xiaoping era of reform and 
opening as a more optimistic view of the direction that China 
broadly was going. Socialism with Chinese characteristics has 
turned into what I think is more of a cultural revolution 2.0. 
And I think the militarization of propaganda and radical 
nationalism is a part of Xi Jinping's leadership.
    I think our fundamental assumptions about the Communist 
Party were wrong. For too long, too many experts on China 
proclaimed that the Communist Party is communist in name only. 
I think that what we are witnessing is a party that remains 
very powerful, very much in control of things not just within 
its own country but influencing institutions around the world.
    Mainstream assumptions about the direction China was going 
to go more broadly beyond the party were wrong, frankly. We 
believed that engagement and privileged access to our markets 
and technology was going to liberalize Chinese society, that 
the benefits would go to its people and that would have a 
normative effect on the country. But those benefits have been 
disproportionately acquired by the party more than its people.
    We were wrong about Hong Kong too. It turns out the Hong 
Kong people care about more than just business. I think it was 
stunning, but also inspiring, to imagine in any polity, 2 
million out of 7 million people going to the streets and 
agreeing on anything in the entire world is an important 
statement. But it is a reminder that clearly the Government of 
China and the Government of Hong Kong touched a nerve, 
something very, very sensitive, probably more so than they or 
maybe even we anticipated.
    I think it is incredibly important today that we focus 
forward that promises made must be promises kept. It is an 
important test with global consequences in Hong Kong. That 
China's current leadership is willing to violate the terms of a 
bilateral treaty registered at the United Nations, how can any 
government or party enter into any new agreements in good faith 
with this leadership?
    The recommendations that I listed in my statement I am 
happy to go into during questions.
    I congratulate the full committee and look forward to the 
President welcoming bipartisan, unanimous support for human 
rights and democracy in Hong Kong. It is an important signal. 
In politics it is not enough to do good. You have to be seen 
doing good. And I think the U.S. Senate and the U.S. House and 
hopefully the U.S. Government in its entirety is seen doing 
right by the people of Hong Kong.
    I would encourage a full-scale review of the evidence we 
have of the efficacy of our strategy toward China. Fundamental 
assumptions have been challenged. Conventional wisdom is upside 
down. And I think it is important for us to have a broad 
national conversation about how to right our China policy, a 
policy that to me lamentably has been incredibly lazy for 50 
years. No other policy toward any major issue or nation in the 
world has remained roughly intact for 50 years. And yet, China 
has changed and our assumptions should have changed and our 
policies should adjust.
    Last, I would conclude with: when you stand up for human 
rights and democracy related to China, there will be people who 
will accuse you of being anti-China. And all I would say is 
there is no more anti-China organization on this planet than 
the Communist Party of China. It is they who conducted a 
revolution against their own people. It is they who conducted a 
revolution against their vaunted traditions and culture. It is 
they who have murdered more Chinese people in the history of 
mankind than anyone else. It is they who have robbed their 
people of more economic opportunity and freedom than anyone 
else. There is nothing more pro-China than to stand up for 
these fundamental freedoms on behalf of the people they say 
they serve.
    Thank you very much for your time and attention, Mr. 
Chairman. I welcome your questions.
    [The prepared statement of Mr. Yates follows:]

                 Prepared Statement of Stephen J. Yates

    Mr. Chairman and distinguished members of the Committee, thank you 
for inviting me to join you today to address one of the most compelling 
and consequential foreign policy challenges of our time: securing 
freedom, autonomy, and human rights in Hong Kong.
    Twenty years ago, this subcommittee conducted three hearings as 
part of a re-examination of U.S.-China Relations. One was a critical 
review of U.S. policy toward China with administration witnesses. The 
other two were assessments of developments related to Hong Kong and 
Taiwan involving outside experts. I was honored to play a part in those 
proceedings and appreciate the privilege of revisiting these issues 
with the passage of time, accumulation of evidence, and under new 
leadership.
    It is now 22 years since Hong Kong's handover from British to 
Chinese sovereignty. Today's hearing, once again, is one of the many 
ways the U.S. Congress demonstrates to Hong Kong, China, and the world 
that developments in Hong Kong remain vital to U.S. interests and of 
great importance to U.S. policymakers.
    In the limited time available for discussion, rather than 
attempting to tell others what to think on these topics, I will attempt 
to emphasize how to think about these challenges and offer a few policy 
recommendations for consideration.
    The following statement of U.S. policy, from President Trump's 
September 24 remarks at the U.N. General Assembly, are a very good 
starting point for discussion:
    ``We are carefully monitoring the situation in Hong Kong. The world 
fully expects that the Chinese government will honor its binding 
treaty, made with the British and registered with the United Nations, 
in which China commits to protect Hong Kong's freedom, legal system, 
and democratic way of life. How China chooses to handle the situation 
will say a great deal about its role in the world in the future.''
    The President's statement cuts to the chase with regard to why 
freedom, human rights, and autonomy in Hong Kong matters to U.S. 
national interests. Of course, the well-being of the Hong Kong people 
is of value in itself, but what makes the situation in Hong Kong of 
great strategic consequence is the role that Hong Kong has long played 
as China's window to the world, the world's window into China, and the 
indicators and warnings it provides with regard to the kind of nation 
China is becoming under Communist Party leadership.
    The treaty obligations the President referred to are contained in 
the 1984 Sino-British Joint Declaration. Implementation of those 
obligations is outlined in the People's Republic of China's 1990 Basic 
Law. The ``one country, two systems'' promise made by the Chinese 
government is often summed up as, ``The Hong Kong people ruling Hong 
Kong with a high degree of autonomy, except in foreign and defense 
affairs.'' Essentially, aside from new emblems and a changing of the 
guard within the Hong Kong Garrison, the fundamentals of what ``makes 
Hong Kong tick'' were meant to remain largely unchanged.
    In addition to maintaining status as a separate customs territory, 
a separate currency, and independent Common Law system, Article 45 of 
the Basic Law declares, ``The ultimate aim is the selection of the 
Chief Executive by universal suffrage.''
    At the time of the handover and in my 1999 testimony, I shared a 
few causes for concern and reasons for optimism as we observed the 
initial stages of Hong Kong's transition from British to Chinese 
sovereignty.
                           causes for concern
    1) Hong Kong's Dependence on Trade. Any loss of autonomy presents 
significant economic risks for Hong Kong markets and workers.
    2) Limitations on Freedoms and Democracy. Free and efficient flow 
of information is vital to free markets and free people. Serious 
questions about Beijing's tolerance for freedom and democracy within 
its ``one country, two systems'' model.
    3) The People's Liberation Army. Its mission in Hong Kong is to 
provide for the territory's defense, and interference in local affairs 
is forbidden. However, many in Hong Kong seek protection from, not the 
protection of, the PLA.
                          reasons for optimism
    1) China's Economic Dependence on Hong Kong. Hong Kong's high level 
of investment in China, and China's high level of investment in Hong 
Kong, may be Hong Kong's best security guarantee.
    2) Communist Party Legitimacy. China's Communist Party needs a 
successful transition to bolster its own legitimacy.
    3) The Taiwan Factor. An infringement on Hong Kong's promised 
autonomy would have a dramatic effect on domestic and international 
support for Taiwan independence.
    For much of the last two decades, this somewhat conventional 
framework of concerns vs. reasons for optimism held up. However, there 
are strategic developments in recent years that should change how we 
view the current situation.
                     china's self-image has changed
    At the time of the handover, China was a more humble nation, in the 
wake of the Tiananmen Square Massacre and the economic recession that 
followed. Consistent with the imperative of getting and keeping the 
economic engines running was the objective of restoring the more 
positive and optimistic view of China that much of the world shared 
through the 1980's until June 4, 1989. In the context of that time, the 
1997 handover of sovereignty over Hong Kong was exceedingly important 
to then Chairman Jiang Zemin and to the People's Republic. Jiang could 
hardly afford to be the leader seen to fumble the transition and have 
international treatment of China fall back to the post-Tiananmen low.
    No longer. China today is not a humble nation. There is a swagger 
that demands more than commands respect. Its propaganda is 
sophisticated, well-funded, and many of its citizens seem to believe 
it. Given the deferential treatment China's leaders have enjoyed around 
the world in recent decades, they may no longer believe that failure to 
deliver on promises made at the time of transition present a meaningful 
risk to China's image or economy.
                    xi jinping is a different leader
    In the 70 years of the People's Republic, China has experienced 
several leadership transitions. None was more important than the one to 
Deng Xiaoping. His ``reform and opening'' policies were a break with 
the errors and excesses of the Mao Zedong era. They appeared to set 
China on a path to catch up with and become more like the rest of the 
world. The policies appeared to work and seemed irreversible. The 
Tiananmen Massacre was a sobering reality check, but the Jiang Zemin 
era of the 1990's represented more continuity than change relative to 
Deng's policies.
    Xi Jinping's leadership is markedly different in style and 
substance. Appeals to nationalism have been common for decades, 
especially when seeking to distract the people away from economic and 
political disadvantages, there is a militance to the ethno-nationalism 
that Xi has unleashed that is more akin to Mao's Cultural Revolution 
than to Deng's reform and opening. It also is more dangerous and 
disruptive, because now it is fueled by massive capital, modern 
technology, and is international. Having broken traditional cultural 
institutions, replacing them with Party control, and unleashing Han 
domination over ethnic and religious minorities, China has now lost 
much of the culture and diversity that made its civilization great and 
worthy of study. This Cultural Revolution 2.0 ethnic chauvinism exceeds 
China's boundaries, as we witness harassment of ethnically Chinese who 
deign to think for themselves, and advocate on behalf of the those 
threatened or oppressed by the Communist Party. As seen in Hong Kong 
and elsewhere, this harassment takes many forms, from physical abuse in 
person to stalking and demonization on social media.
      mainstream assumptions about the communist party were wrong
    Perhaps our greatest error in judgment has been failing to face the 
true nature of the Communist Party, what it consistently does to the 
Chinese people, what it aims to do to our friends and allies, and what 
it is now doing to undermine the institutions of freedom and rule of 
law even within our own country.
    For too long, mainstream foreign policy and China experts suggested 
the Communist Party was ``communist in name only''. It's appeal and 
legitimacy, experts asserted, rests on being the only institution in 
China capable of preserving stability and delivering economic growth. 
Especially under Xi Jinping, the ``Communist'' is back in the CCP.
    Vice President Pence's October 2018 speech at the Hudson Institute 
represented an important turning point in this regard. However, it is 
just a beginning of what needs to be new non-partisan national 
discussion. It is the Chinese Communist Party who has been training and 
deploying political warfare assets worldwide and within the United 
States. Our choice is whether and how to respond, not debate whether or 
not the influence operations are real.
    President Trump was correct in framing the way China handles the 
situation in Hong Kong as an indication of the kind of nation China is 
becoming and the role it seeks in the world. I would add, respectfully, 
one caveat. It tells us something about the kind of nation China is 
becoming ``under the dictatorship of the Communist Party''. To date, 
developments in Hong Kong raise serious doubts about the ability of the 
CCP to peacefully co-exist with any free society.
            mainstream assumptions about the kind of nation 
                      china is becoming were wrong
    With the end of the Cold War and advent of the internet, the ``end 
of history'' was declared and the forces of freedom claimed victory. 
Globalization, emerging technologies, increased trade, and integration 
of China into global institutions, promised to narrow differences, 
increase cooperation, minimize risk of conflict, and increase freedom 
inside China.
    The basic elements of U.S. engagement policies remained as they had 
been for multiple administrations. We accepted the passive, but 
soothing notion that if we just don't treat China as an enemy, it will 
not become one. Time, modernity, and engagement would somehow compel 
China to grow out of its problems and become more like the rest of the 
world. We went further though. We gave China privileged access to our 
capital, our market, our intellectual property. We allowed China to be 
exempted from the rules and norms applied to others.
    We gave China unequal access to wealth and technology, and are now 
surprised to find a stronger, unreformed, illiberal Communist Party 
militarizing those assets against the people and institutions who 
enabled China's rise.
  turns out hong kong people are very committed to rights and freedoms
    For decades many of us, experts included, often have been told Hong 
Kong is all about business and so are its people. With periodic 
exceptions, political developments in Hong Kong rarely cross the media 
or policy radar in the United States. In a region known for high 
profile mass demonstrations and popular movements, most policymakers 
can be forgiven for not thinking of Hong Kong as being in that same 
category.
    The Hong Kong people have accepted Chinese sovereignty, but they 
have not accepted the attempt to compromise the autonomy and way of 
life they were promised. And they have sent a remarkably clear and 
broad-based signal to their leaders and to us.
    Consider the strategic significance of 2 out of 7 million Hong Kong 
citizens filling the streets to stand up for their rights. That's 
nearly a third of the population. In U.S. terms, that would be the 
equivalent of 100 million Americans. Imagine what it would take to get 
100 million Americans to agree on absolutely anything, and agree it is 
so important that they take to the streets in peaceful demonstrations 
for 4 months. And in Hong Kong, the demonstrators (from all walks of 
life) had to know their identities would be scanned and retribution 
would be a real risk. Clearly the government of China and of Hong Kong 
crossed a line and touched a nerve that is more sensitive and 
significant than we or they were led to believe.
          what happens in hong kong will not stay in hong kong
    CCP Influence operations (aka political warfare) extend beyond Hong 
Kong to attacks on institutions of freedom and rule of law in Taiwan, 
across Asia, around the world, and within the United States. The impact 
of how the Chinese and Hong Kong governments deal with the 
demonstrators and their demands also will shape policies and 
perceptions of China near and far.
    A slogan that emerged from recent coverage was, ``Hong Kong today, 
Taiwan tomorrow''. It is definitely the case that the scale of 
demonstrations in Hong Kong and also the harrowing images of violence 
against the demonstrators have had a significant effect on perceptions 
and politics in Taiwan. For the most part, reinforcing the resolve of 
the Taiwan people to choose their own way, doubting the viability of 
any possible deal with the Communist Party. But with the January 
elections coming in Taiwan, there also is concern that the heavy 
pressure recently applied to Hong Kong is heading their way in an 
attempt to influence the outcome or undermine its legitimacy.
    It is important for our own national interests that those defending 
against these influence operations succeed, that they do not feel like 
they stand alone in doing so, and that we learn from their experience.
                  promises made, must be promises kept
    Among the things that make the demonstrations in Hong Kong 
different from those we often see elsewhere, is that the people of Hong 
Kong are not asking for something new or aspirational. They are 
demanding that existing autonomy be preserved and promises already made 
be kept.
    It is an important test, with global consequences. If China's 
current leadership is willing to violate the terms of a bilateral 
treaty registered with the United Nations, how can any government or 
party enter into any new agreements in good faith with this leadership?
                            recommendations
    Pass the Hong Kong Human Rights and Democracy Act. In politics at 
every level, it is not enough to do good, you must be seen doing good. 
The 1992 Hong Kong Policy Act did a fine job of establishing a 
framework for national and international discussion of U.S. interests 
at stake in Hong Kong. It demonstrated to the people of Hong Kong that 
they would not stand alone through this transition, and it demonstrated 
to leaders in China that the United States would remain engaged and 
ensure accountability. The Hong Kong Human Rights and Democracy Act is 
a natural and important extension of that commitment.
    Visit Hong Kong and Seek Access to Detained Demonstrators. Among 
the more shocking of recent developments in Hong Kong were the violent 
images of tactics used against the demonstrators. We also know that 
there have been many arrests and detentions. What we have less 
visibility into is the treatment of demonstrators while incarcerated. 
Given the long history of U.S.-Hong Kong law enforcement cooperation, 
and the high standards of professionalism we have come to expect from 
our friends in Hong Kong, it would be appropriate and important for 
visiting U.S. officials to seek access to detained demonstrators and 
observe their conditions first-hand.
    Re-Examine and Adjust China Policy to Current Realities. While I 
applaud the Committee's attention given to Hong Kong and the U.S. 
interests at stake there, the Hong Kong challenge is a symptom of a 
larger problem. As was done in 1999, the Congress should conduct a 
critical reassessment of U.S. policy toward China, question 
assumptions, consider new evidence, and recommend key elements of a new 
approach with potential to be sustained for successive administrations, 
as has been the case with the outdated policy. The basic elements of 
our longstanding engagement policy toward China were set in motion 50 
years ago. No U.S. policy toward any major nation or challenge has 
remained so consistent (or lazy) for so long.
    Sustain Bipartisan Voice in Support of ``Davids'' vs. Chinese 
Communist ``Goliath''. While a myriad of voices will claim that by 
doing so you are attacking China, hurting the feelings of 1.3 billion 
people, or are engaging in destructive Cold War thinking, don't let 
that dissuade you. There are hundreds of millions of good Chinese 
people. There are thousands of years of Chinese culture and 
civilization worthy of study and respect. The Chinese Communist Party 
has no claim to any of it. There is no entity less Chinese than is the 
Communist Party. No entity has murdered more Chinese people than has 
the Communist Party. No entity has robbed the Chinese people of more 
wealth and opportunity than has the Communist Party. No entity is more 
anti-China than is the Communist Party. There is nothing more pro-China 
than standing with the over 2 million Hong Kong people calling for 
promises made to be promises kept. There is nothing more pro-China than 
standing with the over 23 million Taiwan people as they continue their 
democratic progress and remain a force for good in the world. There is 
nothing more pro-China than speaking up for the institutions and 
communities that thrived prior to the establishment of the Communist 
Party's ``New China''. Doing so not only comforts those in need of 
comfort, it also strengthens every President's hand in dealing with 
China's leadership.

    Senator Gardner. Thank you, Mr. Yates.
    Dr. Martin?

 STATEMENT OF MICHAEL F. MARTIN, SPECIALIST IN ASIAN AFFAIRS, 
         CONGRESSIONAL RESEARCH SERVICE, WASHINGTON, DC

    Dr. Martin. Chairman Gardner, Ranking Member Markey, 
Senator Young, it is an honor and a privilege to testify at 
today's hearing concerning the emergency situation in Hong 
Kong.
    At its heart, the 2019 pro-democracy protests are a 
conservative movement. The protestors seek to protect and 
maintain the Hong Kong they believe the Chinese and Hong Kong 
governments promised that would continue to exist at least 
until July 1, 2047. Their Hong Kong is a community that is 
governed by the rule of law, one that respects human rights and 
civil liberties. It is a society where people have freedom of 
speech, thought, and assembly without fear of retaliation, 
rights protected by the Sino-British Joint Declaration of 1984.
    It is also a Hong Kong ruled by the people of Hong Kong and 
will 1 day elect its Chief Executive and all the members of its 
Legislative Council by universal suffrage in elections in which 
any eligible resident can run as a candidate, a promise made by 
China in Hong Kong's Basic Law.
    For the first few years after July 1, 1997, it seemed that 
China's leaders were committed to making the concept of ``One 
Country, Two Systems'' work in Hong Kong, perhaps at least in 
part to demonstrate to Taiwan that reunification is possible.
    As time progressed, the actions of the Chinese and Hong 
Kong governments have threatened freedom of speech, constricted 
local political choice, and undermined Hong Kong's promised 
high degree of autonomy. Since 1997, many people in Hong Kong 
believe that if they did not rise up in protest, the city they 
wish to protect and maintain will disappear.
    In 2003, an estimated half million people rallied in 
opposition to a proposed national security bill that they felt 
would curtail their civil liberties.
    In 2014, thousands of protestors occupied the streets of 
Hong Kong's Admiralty, Causeway Bay, and Mong Kok Districts for 
nearly 3 months, an event known as the Umbrella Movement, to 
object to a decision by the Chinese Government that the 
protestors thought would unduly restrict the nomination process 
for the chief executive.
    Now in 2019, more than 1 million people have risen up to 
oppose proposed legislation that, for the first time, would 
have permitted the extradition of a criminal suspect from Hong 
Kong to mainland China to face what Nathan just said and many 
in Hong Kong consider an unfair and corrupt court system.
    The Chinese Government views the current situation in Hong 
Kong from a very different perspective. For China's leaders, 
the United Kingdom acquired Hong Kong illegitimately under the 
terms of unequal treaties tied to the Opium Wars. To them, Hong 
Kong's return to Chinese sovereignty in 1997 redressed a past 
injustice and restored the nation's territorial integrity. To 
them, as article 1 of the Basic Law states, ``the Hong Kong 
Special Administrative Region is an inalienable part of the 
People's Republic of China.''
    China's state media have portrayed the 2019 protests as 
part of an international plot led by the United States to 
undermine China's authority over Hong Kong and encourage 
separatism. As such, China's leaders see the protests as a 
threat to national sovereignty and integrity. As a result, the 
Chinese Government has pressed the Hong Kong Government to use 
greater force to redress this threat and end the protests.
    For the Hong Kong Government, all four of its chief 
executives to date have struggled with balancing their 
obligations to the Chinese Government and to the people of Hong 
Kong. In the end, all four arguably have been more beholden to 
the Chinese Government than to their fellow Hong Kongers.
    These fundamentally different perspectives of the 
protestors and the Government of Hong Kong and China do not 
offer a ready solution for the current crisis. For now, it 
appears the protests will continue until either the protestors' 
five demands are met or more dramatic action is taken by the 
Chinese and Hong Kong governments.
    There are many other issues I could have brought up today 
in my testimony, but for sake of time, I wanted to limit it to 
what I thought was the fundamental issue, the key differences 
of perspective between the protestors and the Hong Kong and 
Chinese government.
    Chairman Gardner, Ranking Member Markey, Senator Young, 
thank you again for the opportunity to testify, and I am 
pleased to respond to any questions you and other people may 
have.
    [The prepared statement of Dr. Martin follows:]

                Prepared Statement of Michael F. Martin
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Gardner. Thank you, Dr. Martin. And thank you 
again, all three, for your testimony today.
    Mr. Law, you and I have had the occasion to meet before, 
and I cannot tell you how grateful I am for your presence here 
before this committee and before the Congress of the United 
States and the people of this country who stand with Hong Kong 
and the autonomy that you fight for and the freedoms that you 
strive for.
    The first visit that I made to Hong Kong several years ago, 
President Xi was a relatively new leader in China. Some of the 
civil society leaders that I had met with at the time had said 
things to the effect of, well, perhaps the anti-corruption 
campaign that President Xi is leading or perhaps some of the 
policies that he is enacting are because he is a real reformer 
and that he is cracking down in this way so that he will have 
the freedom and the ability to make real reforms that could 
turn China away from an authoritarian rise or away from the 
society that they were locked into perhaps and they would build 
more freedoms.
    And I think it is pretty clear after activities that we 
have seen throughout China, around China, throughout the 
region, in Hong Kong, as they treat Taiwan as well, that that 
is not the case, that this is not a reformer leader, that this 
is not an opening leader for more opportunity of freedom and 
autonomy, human rights, and the dignity that goes along with 
every person in this world, let alone in China.
    And so the discussions we had on Hong Kong led to 
discussions about what makes this work in Hong Kong. How will 
Hong Kong survive under this leadership of President Xi and the 
new governance, the new direction, the more authoritarian 
direction of China?
    When I met with U.S. businesses, they would talk about the 
independence of the judiciary. When I talked to civil society, 
they would talk about the independence of the judiciary. And as 
we saw indexes of freedom or indexes of economic freedoms or 
personal liberties or news stories of book owners being 
kidnapped and people taken from Hong Kong into China, and as we 
saw the news of those activities increase and the decline of 
freedoms multiply, people would always go back to the freedom 
and independence of the judiciary in Hong Kong. And it just 
seems to me, looking in from the United States what was 
happening in Hong Kong, that the extradition bill that was put 
forward seemed to strike at the very core of that independence.
    Mr. Law, do you agree with that or am I misreading it? And 
how should I think about what I learned when I was there and 
how it applies today and the protests and the work that you 
have taken?
    Mr. Law. Thanks for the question, Chairman Gardner.
    I think your observation is precise about what is happening 
in Hong Kong. I think what is happening in Hong Kong is not an 
isolated case. It is the all-around policy by China. If you 
look at expanding the concentration camp in Xinjiang, you look 
at the cultural wipeout in Tibet, you look at intimidation to 
Taiwan, and all sorts of civic society cracking down in 
mainland China, you will see the same process and the same way 
of annihilation of free society and free values are happening 
in China.
    And the way that they treat these regions are not only 
treating their internal affairs, but they are also having an 
authoritarian expansionist angle. They are treating the world 
by using like Belt and Road Initiative and all sorts of 
geopolitical influence to get some other places into a more 
authoritarian way. And we could see that trend from a lot of 
indexes and a lot of reports from INGO which looked into that 
issue.
    So I do believe that the trend in Hong Kong is definitely 
an issue for Hong Kong people because it threatens our freedom 
and threatens rule of law, and these are the cornerstones of 
our prosperity. But also, it is an issue that the world has to 
join hands and face because the way that they expand and export 
authoritarianism definitely hampers the spread of democracy and 
result in the revival of authoritarianism and the recess of 
democracy.
    So I do believe what is happening in Hong Kong is a great 
symbol of how China treats the world order and free societies. 
And I do believe that what is happening in Hong Kong and we at 
the forefront of the clash of authoritarian and liberal 
values--it needs more attention and help and concrete support 
from the free society. So I think the observation is accurate, 
and I think it should be transformed into actions in countering 
the kind of encroachment in Hong Kong's free society.
    Senator Gardner. You mentioned the Hong Kong Act, and we 
have talked about the Hong Kong Act that passed both the House 
and Senate committees yesterday. What more would you like to 
see from the United States to address what you just mentioned?
    Mr. Law. Well, first of all, I do hope that it can be 
passed in the floors of the House and Senate. And I think Hong 
Kong people are extremely excited about it because it is a way 
that the global community, especially the U.S., showing support 
to Hong Kong. Sometimes we feel isolated because of the 
tightened control of China, and sometimes people see Hong Kong 
as an economic entity but not a place that protests and fight 
for democracy took place.
    But for now, we demonstrate our determination of fighting 
democracy and autonomy. And our demand is just so humble 
because we just want China to do what they have promised, and 
the way they treat Hong Kong, as President Trump just said, 
will set an example of how they treat the other international 
treaties. So I do believe that we have a high moral ground and 
necessary helping hands should be delivered from the other 
places like the U.S. or even the U.N. and some other 
international organizations.
    As for the bill, of course, the bill has--a huge portion of 
that bill is to sanction the officials who are responsible for 
the encroachment in Hong Kong. And I do believe it plays an 
important role. Just look at the kids and daughters of our 
senior officials in Hong Kong. They are not even studying in 
Hong Kong. They just kind of mess up Hong Kong's system and 
then take their daughters and kids overseas and let them to be 
British or U.S. citizens where they reap all the fruits, all 
the rewards from China giving them in the expense of Hong 
Kong's future. So I do believe that this set of sanctions is 
kind of a way to warn them that you cannot get it both ways. 
For China and for the officials in Hong Kong, you cannot get it 
both ways. If you are eroding Hong Kong's autonomy, you cannot 
be rewarded by doing so because you are violating a lot of 
cornerstones of our society.
    So I do think that even though the bill is passed, the 
administration should take the responsibility actively enacting 
this portion of the bill in order to send a signal to them.
    Senator Gardner. Thank you, Mr. Law.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    The Hong Kong Policy Act of 1992 allows but does not 
require the United States to treat Hong Kong differently than 
China. And I was proud to vote for that act as a Member of the 
House of Representatives. But I am growing increasingly 
concerned about Hong Kong's level of autonomy and what that 
means for U.S. policy going forward.
    So, Dr. Martin, what degree of autonomy does Hong Kong 
currently have, and what are the chances that Hong Kong can 
increase its autonomy in the coming months and years, given the 
fact that it is a 50-year deal and we are now 22 years into 
that process?
    Dr. Martin. Senator Markey, a very good question and one 
that is very difficult to answer.
    I would say different aspects of Hong Kong's autonomy 
remains relatively high, but other parts less so. There have 
been a number of actions taken by the Chinese central 
government, for example, interpreting the Basic Law, or what 
they call interpreting the Basic Law that ends up restricting 
the governance of Hong Kong, one of which was utilized to 
disqualify Nathan Law and five other members of the Legislative 
Council who were elected by adding provisions in the Basic Law, 
regarding how to take oaths. So you have a number of areas in 
terms of the legal environment where the actions of the Chinese 
central government have reduced the autonomy of Hong Kong.
    A concern right now in the protest movement is to what 
extent are the Hong Kong police force is reporting to the chief 
executive, Carrie Lam, or are they reporting to other 
authorities. There are a lot of rumors floating around in the 
current environment, but there are some signs that basically 
the Hong Kong police force are acting with a high degree of 
independence and may be reporting to authorities in the liaison 
office in Hong Kong, as well as in Shenzhen or even in the 
central government in China.
    And one other aspect where you see an erosion of autonomy 
is the involvement of the liaison office in the political 
environment in Hong Kong. It is quite well known in Hong Kong 
that the liaison office communicates to political figures in 
the business community about who they want to be the chief 
executive, who they want elected in district council elections, 
which are coming up in November. Joshua Wong hopes to run, but 
it is not clear he will be able to run. So the liaison office 
is increasingly active in local politics.
    There is a provision in the Basic Law that says no agency 
in the Chinese central government can be involved in the local 
internal affairs of Hong Kong. So that is another area where 
people point to violations.
    Senator Markey. So let me ask you this, Mr. Law. On August 
30th, I wrote to Mark Zuckerberg asking why Facebook runs 
targeted ads for state controlled media organizations, 
including those in mainland China, that dehumanize and spread 
disinformation about protestors. Unlike Twitter, which changed 
its policy during the protest, Facebook still at this very 
moment and which it confirmed in its responses to my letter--I 
sent them a letter on August 30th. And in their response to me, 
they said that they do accept money from Chinese state-run 
outlets that use its platform to cast protestors as rioters and 
as extremists.
    So, Mr. Law, what impact do you think Chinese state media 
content spread on social platforms like Facebook might have on 
these protests and on the reaction to them?
    Mr. Law. Well, thanks for the question, Senator Markey.
    And I do believe that the way Chinese are manipulating 
propaganda in terms of dehumanizing the protestors--the protest 
is overwhelming because I think this is also an ideology that 
affects not only the citizens who are in support of the pro-
Beijing camp but also the law enforcement. So you could have a 
lot of claims. They are proclaiming the protestors as 
cockroaches or even the reporters. Therefore, they legitimize 
their use of force or even those obviously violating the 
protocol that they should follow in order to do their 
crackdown. And that is what Carrie Lam relies on.
    So I do believe for social medias and any other advertising 
companies should be aware of that tactic because sometimes if 
you are trying to be neutral and get an advertisement for some 
other different sides of the organization, you may actually be 
helping them in respect of certain ideology. So I think the 
dehumanization that the police force has been using just like 
the Rwanda genocide had adopted, even though the degree is 
incomparable, but the essence is the same.
    Senator Markey. But what do you want Facebook to do?
    Mr. Law. Well, of course, like Facebook and Twitter have 
been taking measures to delete accounts recently orchestrated 
by the Chinese Government. And I applaud for these measures. I 
hope they continue to do so. And if they find any advertisement 
that is spreading hate speech, disinformation, also 
dehumanization, well, discourse toward the protestors and Hong 
Kong people, they should take prompt action to stop it.
    Senator Markey. Mr. Yates or Mr. Martin, what role is 
social media playing in this, especially American companies, in 
their complicity in any of these activities? We know in Burma 
it happens, but here in Hong Kong as well. So if you could just 
give us your views on that.
    Mr. Yates. Well, Senator, I think it is an incredibly 
important issue given that these were supposed to be tools of 
liberation. The advent of the Internet, social media, all these 
things were supposed to connect people in positive ways, allow 
for free expression. What we see in the Communist Party of 
China is a very effective use of the tools of liberation, now 
militarized into tools of control and intimidation. And so, 
trying to find policies and technical ways to combat 
oppressors' abilities to use these tools against free people I 
think is a massive challenge, and we need to be pressing those 
companies to be a part of it.
    What is happening in Hong Kong today on the use of those 
tools is going to be used in Taiwan in their upcoming election 
in January where there is definitely going to be an attempt to 
try to manipulate information and possibly undermine the 
legitimacy of an election outcome. Those same tools very well 
could be deployed in the United States over the course of 2020 
and try to shape American minds. The most offensive image among 
many I think out of Hong Kong in recent times was a very 
slickly produced video that compared the protestors in Hong 
Kong to the Taliban and suggested that they were terrorists. 
And so, they have money, technology, and social platforms that 
are weaponizing propaganda in ways I do not think we have ever 
seen.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Senator Young?
    Senator Young. Mr. Law, thank you for your courage, for 
your activism, for your presence here today.
    Let me begin by offering a message once again to the 
Chinese Communist Party leadership. You covet strength. You 
covet control. You covet stability. You have a pattern of 
broken promises, however. And I believe that your pattern of 
one-sided free trade, of predatory economic practices, your 
effort to export the tools of population control in Orwellian 
fashion through your Belt and Road Initiative, your human 
rights transgressions--I predict that by continuing to expose 
these practices by shining a bright light on them, a 
credibility gap has not only--it has not only been exposed, but 
it will continue to grow. And the Chinese leadership will 1 day 
fall into it.
    And so your presence here today, Mr. Law, I think is really 
important, as is your continued activism. My only fear, anxiety 
is that you and others in fairly short order may not enjoy the 
political space, the freedom to continue exposing these 
practices, these violations of your human rights.
    There is legislation, as I know you are aware and you have 
urged my colleagues and I to support, for us here in the U.S. 
Senate that has been offered by Senator Rubio. It would 
prohibit the State Department from denying a visa because the 
individual applying has been arrested or detained or had the 
Hong Kong or Chinese government take action against him or her.
    I believe we should welcome Hong Kongers who believe that 
rights are not the gifts of government but instead they are 
gifts from God or a creator or whatever one's faith, tradition, 
or philosophical perspective might be. I believe that we should 
welcome Hong Kongers who understand the job of our government 
leaders is to represent and serve but not to rule.
    And so going beyond Senator Rubio's legislation, which I 
really believe will pass, I hope will pass, I wonder whether 
creation of a special immigration status for any besieged Hong 
Kongers seeking to come to the United States of America would 
be of interest to those protesting so that they too might enjoy 
living in freedom and advancing democratic values but also so 
that they too might work with others, other likeminded 
individuals in the United States of America who might be 
mobilized to contest Chinese authoritarianism and the threat it 
poses to all democratic, peaceful societies worldwide.
    And so I ask you, do you believe that creation of this sort 
of special immigration status might be of interest to many Hong 
Kongers?
    Mr. Law. Well, thank you for the question, Senator Young, 
and encouragement and a great suggestion.
    I do believe that the special status or criteria for Hong 
Kong protestors or people who believe in universal values as 
the others in this room could, indeed, boost the morale and 
actually help Hong Kong people because if you look at the way 
the government has been prosecuting and arresting the 
protestors, basically they do it in an arbitrary fashion and do 
it to intimidate people not to go out on the street and 
conflict with the police and speak up for the justice. So I do 
believe that if such a recognition from the U.S., especially in 
terms of supporting the people who stand up for their justice 
in Hong Kong, indeed help them, and the protestors in Hong Kong 
would welcome this measure.
    Senator Young. Well, so many of the leaders, the Communist 
leaders, in Hong Kong, as you indicated, send their own 
children to the United States, to the United Kingdom to enjoy 
our freedoms, to be educated, and so forth, and they will 
continue to do so. And so it strikes me as right and proper 
that we give strong consideration to affording similar 
dispensation to those Hong Kongers who are prepared to put 
everything on the line, their lives, their fortunes, their 
sacred honor in order to defend the very values that our 
country is trying to uphold.
    I also know that there are some who may prefer to continue 
to stay in Hong Kong to march for freedom and democratic 
values, and I certainly would be respectful of that.
    But with your direction, I think we will work on that 
initiative. I appreciate the feedback.
    On September 9th, Mr. Law, the ``Global Times,'' a Chinese 
news publication said that the mainland is set to defend Hong 
Kong. Meanwhile, media reports in China have characterized the 
protestors as violent radicals and mobsters--and you indicated 
in your testimony they have even called them cockroaches, 
dehumanizing them--while praising the police for showing great 
professionalism and restraint. This seems to be setting the 
stage for a larger crackdown, a more serious one.
    So if mainland China moves in to suppress Hong Kongers, I 
am concerned that we could witness something on the scale of or 
something that is on par with the gravity of the Tiananmen 
Square massacre, which I think has been scrubbed from the 
Internet for most of those who live in mainland China.
    What will the next steps by mainland China tell you about 
Hong Kong's future and the mainland's ambitions?
    Mr. Law. Well, of course, I do think that there are signals 
of them showing a tougher stance on Hong Kong by deploying 
troops near to the Hong Kong border and sending all the 
messages online and intimidating Hong Kong people.
    But I do think that Hong Kongers do play an important role 
in the economy, especially Hong Kong is the largest port of 
getting money in, getting FDI in China, and getting the money 
out of China, and also it provides, well, supports for the Belt 
and Road Initiative and all sorts of things that could help 
China to catalyze it. So I do believe that they will be making 
a very cautious decision in terms of sending troops in Hong 
Kong to create another scene that resembles the world about 
1989.
    But it does not mean that they will stop the suppression. 
It will happen in a more subtle way. For example, the police 
force will be expanding their power and torturing all the 
protestors in a place that no camera will capture them and in a 
place that no hospital will be willing to kind of get treatment 
on them, et cetera because the protestors are too afraid of 
going to the hospital and being arrested, and so on.
    So I do believe there is a potential crackdown took place 
in the future, especially it is getting close to the 1st of 
October which the Chinese Government will be celebrating its 
70th year anniversary, and the crackdown will get much more 
severe. So I do believe that is an important date that we 
should put focus on and closely monitor how China acts and how 
the state apparatus in Hong Kong operates.
    Senator Young. Thank you.
    Senator Gardner. Thank you, Senator Young.
    Mr. Law, I think one of the more alarming images that I saw 
in the heart of some of the protests a few weeks ago--I was at 
a company in Colorado that does a lot of spatial imaging, and 
one of the employees showed me an image of basically a buildup. 
It looked like a military buildup on the border of Hong Kong. 
And you saw what looked like, at least from space, armored 
personnel carriers almost in a stadium of some kind that looked 
like they were ready to invade.
    So a couple of questions. Do you still see that kind of 
buildup along the border? Do you still see the shocking videos 
that we saw in the United States of these white-shirted thugs 
at a train station beating people randomly as they went by, as 
the police just simply ignored what was happening? Do you still 
see those kinds of things? Is it random? Is the force still 
there, the pressure still there?
    Mr. Law. Well, thank you for the question, Chairman 
Gardner.
    The presence of the collusion of thugs and police is still 
very obvious. And from the recent protests, we can see signs of 
the gangsters attacking the protestors. And when the police 
were approaching, they were just guarding those gangsters out 
and arresting those who were under attack by them.
    So I do believe that the government has been outsourcing 
violence to these gangsters in order to intimidate the 
protestors and assault them. And that is the way that Hong Kong 
has turned into a police state which is a true source of 
violence, no matter one or informal one, are actually targeting 
the protestors and harming them.
    So I do believe it is a worrying phenomenon, and that is 
exactly how the Chinese Government wanted to manipulate the 
situation of Hong Kong. Obviously, a lot of these gangsters--
well, in the morning, a cross-border bus drove them to the 
site. And after they attacked, they just drove back to mainland 
China. There is no way to trace them. There is no way to follow 
them and that is under the allocation of the Chinese Communist 
Party. So I do believe that is a worrying trend, and we should 
be aware of that.
    Senator Gardner. Thank you.
    Mr. Yates, in your testimony in your recommendations, you 
talked about visiting Hong Kong, and you talked about seeking 
access to detained demonstrators. Mr. Law talked about 
torturing protestors.
    What do we know about how many demonstrators may be 
detained? What can we do? What should we do? Is there a role 
that the United States or other international organizations 
could play in this to make sure that these protestors, these 
detained demonstrators are okay?
    Mr. Yates. Thank you, sir.
    I do believe that there is a role to play. Some of your 
colleagues and maybe some of you in due course will visit Hong 
Kong and its near abroad. When you do, we have decades of 
cooperation with Hong Kong authorities. We have invested lots 
of money in joint training and other kinds of activities over 
the years. And there are many, many truly professional and 
respectable people who work in that government. Some of them 
even risk their fortunes joining the demonstrators. And so, I 
think there is value in going and engaging.
    I do not have a good gauge on the total numbers of those 
arrested. There seems to be places they are being held and 
questioned in ways that are not consistent with the Hong Kong 
we had thought we were dealing with. I think that it is 
important to seek access to these facilities. There are some 
named ones. I would be happy to share a list that I have been 
given that are worth going and seeing.
    Of course, we have experience in other parts of the world 
where there are political prisoners being held, and I do 
consider people who have peacefully protested to be political 
prisoners if they are being incarcerated.
    So, I do think that there is a role. I would encourage all 
Members to avail themselves of it to the extent time allows, 
and I think that we may actually find some allies within the 
Hong Kong Government who want transparency and accountability 
too.
    Senator Gardner. Thank you, Mr. Yates. If you could provide 
that list, please do so.
    Mr. Law, any idea of what you are seeing, demonstrators 
that are jailed? You mentioned a concern about their treatment.
    Mr. Law. Well, obviously, a lot of torture happening on 
them out of camera, and it relies on the international news 
organization or INGO's like Amnesty International to do a 
thoughtful investigation on it. I do believe that this evidence 
should be valued and should be brought up no matter to the 
floor of the Congress or any other places in the U.S. that 
could actually be evidence to apply some pressure to the Hong 
Kong Government and also the law enforcement.
    And this could actually be evidence if in the future there 
is any possible sanction on them. Well, that could create a 
kind of atmosphere for them to let them know that even though 
those things that they have done without surveillance but 
actually people could speak on that. They will be punished for 
their misbehaviors of what they have been doing. So I do 
believe that other than, well, helping them by these kind of 
measures that we can take.
    Also, for the U.S. what I have just mentioned and Senator 
Young has just mentioned about the visa and about any status or 
academically we provide more room for Hong Kong students who 
are suffering from this kind of suppression, these are great 
measures to be taken.
    Senator Gardner. Thank you, Mr. Law.
    Dr. Martin, the Basic Law, the Sino-British Joint 
Declaration stipulate with regard to Hong Kong's status and how 
it is going to be treated, the way their relationship will 
work. As an international treaty, is the Joint Declaration 
enforceable at the United Nations or in other international 
venues?
    Dr. Martin. As an international treaty, it is registered 
with the United Nations, and its duration till 2047. My 
understanding from lawyers is it still remains in effect.
    In terms of enforceable, it does not have any teeth in it. 
There is no provision for punishment for either the United 
Kingdom or China for not abiding by the terms of it, but there 
is certainly, as Mr. Yates pointed out, the international 
pressure that could be brought against China for not living up 
to its commitments, in terms of the treaty.
    If I may make a quick comment.
    Senator Gardner. Please.
    Dr. Martin. You asked about the number of prisoners. I 
believe we are approaching about 1,500 people that have been 
arrested. The numbers go up every day. There were just a few 
arrested last night in Sha Tin.
    And in terms of locations, the detention center that Nathan 
referred to later, is one that is normally used for illegal 
immigrants. It is not one that is used for Hong Kong residents. 
It does not have closed circuit TV capacity so that when those 
being detained are being visited by police officers or any 
enforcement officers, there are no records of what is taking 
place.
    Like I said earlier, rumors are quite rampant in Hong Kong. 
There have been reports and allegations of abuse, torture, and 
I fear to say even worse that is taking place at that center.
    Some members of the democratically elected Legislative 
Counsel, that is, members who were elected by the general 
public, have asked to go to that detention center as, for 
example, U.S. Members of Congress would like to go to detention 
centers in the United States. The Hong Kong Government has 
denied access. They said, no, you may not attempt to see. So I 
would encourage, for example, if you want to find out more 
about it and if you go to Hong Kong, asking to see where these 
people are being held is one of the things you could consider.
    Senator Gardner. Is there a way for members of the 
Legislative Council to request perhaps a United Nations 
delegation to inspect or to attend these detention centers as 
well?
    Dr. Martin. Can they do so? I believe that would be within 
the authority of the Legislative Council in Hong Kong. They 
operate under very different rules. Most legislation in Hong 
Kong is introduced by the chief executive and the secretary. It 
is a parliamentary system. So there are strict restrictions on 
the type of legislation LegCo members--shorthand--can 
introduce.
    Right now they are not in session. Part of the reason they 
are not in session is the chambers were damaged on July 1 of 
this year in a demonstration. But it is also traditionally the 
time when they are in recess.
    So in terms of this extradition bill, it has not been 
formally withdrawn yet. All that Carrie Lam has said is that 
she will submit such a withdrawal request to the Legislative 
Council when they reconvene in October. So I would also say we 
should be watching to see whether or not that takes place and 
what exactly transpires when that occurs.
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Thank you.
    So 2 days ago President Trump at the U.N. said, we are 
carefully monitoring the situation in Hong Kong. The world 
fully expects that the Chinese Government will honor its 
binding treaty it made with the British and registered with the 
United Nations in which China commits to protect Hong Kong's 
freedom, legal system, and democratic way of life. How China 
chooses to handle the situation will say a great deal about its 
role in the world in the future.
    But previously, President Trump referred to the protest as, 
quote, ``riots'' and said that China, quote, ``will have to 
deal with that themselves.''
    So, Mr. Law, what is the consequence of such a mixed signal 
coming from the President of the United States?
    Mr. Law. Thank you, Senator Markey.
    Obviously, we noticed that there is like kind of a volatile 
stance taking place by the administration. And even though 
there are some times President Trump has been speaking up for 
Hong Kong, but sometimes the messages are quite confused in a 
certain degree of matters.
    So I do believe that as a force in the council and in 
Congress, there has been a huge momentum pushing forward the 
Hong Kong Human Rights and Democracy Act, and it should create 
a momentum that is actually not only in the Congress but in the 
administration side. They should take prompt actions in order 
to handle the situation of Hong Kong and give support of the 
people of Hong Kong who are fighting for human rights and 
justice.
    So I do believe that even though sometimes we get a mixed 
message, but as long as we follow the measures that we have 
registered, we will kind of make it into a law, and then we 
monitor the application of the administration, urge them to do 
in accordance to what is happening in Hong Kong and the 
violation of the international treaty that China has been 
having. And I do believe that the U.S. could be a strong 
support not only for Hong Kong but also for the liberal world 
and for the justice and human rights that we all share. So I do 
think adding more exposure of the Hong Kong issue in the 
Congress and in the society as a whole indeed helps to push 
forward to that direction and also sending a delegation from 
the Congress to the San Uk Ling holding center that we 
mentioned or generally to observe the situation of Hong Kong to 
feed back to the American public and to the global community 
could also be a helping hand for them to realize and understand 
the situation of Hong Kong.
    Senator Markey. Let me ask you this.
    We are 22 years now into the agreement between the Chinese 
Government and Great Britain. And at the end of that 50-year 
period, which would be 2047, Hong Kong would fully be part of 
China. That is the agreement. So we are now 22 years into. We 
are now 44 percent of the way through this process toward 2047.
    So what does it mean, from your perspective, as a preview 
of coming attractions that China is now through Carrie Lam 
ordering these kind of actions in terms of what your greatest 
fears might be as to what will happen as an erosion of rights 
before we reach 2047 where, under the agreement, Hong Kong is 
fully part of China?
    Mr. Law. Well, I do believe that we have to send a strong 
signal to the Chinese Communist Party that in the Hong Kong 
issue, they cannot get it in both ways. The special economic 
status of Hong Kong is kind of being determined by the Hong 
Kong Policy Act of 1992 in the U.S. Congress, and the other 
parts of the world followed. And if China has had a mind of 
kind of stripping out all the contents of the ``One Country, 
Two Systems'' but remaining the shell of it in order to make an 
illusion that Hong Kong operates well and autonomy is still 
being preserved, then I think they are making huge mistakes 
because Hong Kong people clearly understand our autonomy has 
been stripped away. And we urge the Chinese Communist Party to 
know that if they want to destroy Hong Kong's democracy and 
autonomy, that it cannot just simply reap its economic outcome.
    Senator Markey. So thank you. Again, thank you for your 
courage.
    Mr. Martin, what do you think this means in terms of the 
deadline arriving now in a relatively brief period of time from 
a historical perspective?
    Dr. Martin. The Joint Declaration stipulates that Hong Kong 
will be treated by China in a particular way for 50 years, but 
it makes no clear statement about what happens at the end of 
that 50-year period.
    Back when I was living in Hong Kong on July 1, 1997 and I 
saw the Union Jack come down for the last time, many of us were 
hopeful but concerned about what the future would bring for a 
city that we know and lived in at the time. At that time, I 
think the feeling was that over time there will be changes and 
that by 2047, there will be full democracy in Hong Kong, as 
promised in the Basic Law, not in the Joint Declaration, and 
that things will have changed, as Mr. Yates had described, in 
mainland China so that the situation would be so different than 
what it was at that time, that it would not be particularly 
problematic.
    Events of the last few years I think indicate that maybe 
that was overly optimistic and that, for example, this pledge 
for universal suffrage and choosing the chief executive and all 
the members of the LegCo by universal suffrage is not going to 
be provided in a manner that people like Nathan and others feel 
allows them true democracy. So they talk about genuine 
universal suffrage. What they want is democracy, the right to 
vote for candidates of their choice.
    And another element that I hear among the young people is 
self-determination. They want to be able to have a say in their 
own future. In 1984 when the Joint Declaration was signed, 
during that negotiation process, there were no Hong Kong 
representatives at the table. It was Chinese officials and 
British officials negotiating. And ever since then, anytime 
there has been a critical issue, the people of Hong Kong feel 
like--many of them, not all of them--their voice is not being 
heard.
    So by 2047, I will be quite elderly and I do not know if I 
will be around to see what transpires. But what Nathan and 
Joshua Wong and the younger people are saying is they want to 
have self-determination. They want democracy.
    Senator Markey. So I went with President Clinton in July 
1998 on his trip to China for 10 days. So I was with him during 
that trip. One of the leaders said to us privately that they 
were going to follow the model of perestroika in Russia at that 
time--this is pre-Putin--to open up more opportunities for 
entrepreneurial activity inside of their country and that they 
believed that perestroika made a lot of sense for China as 
well, but that they disagreed with the Soviet Union, with the 
Russians with regard to glasnost, openness that that had 
created from their perspective a mess inside of Russia. And 
they will not make that mistake. They will follow perestroika 
but not glasnost, restructuring of the economy but not 
openness.
    So that was their plan beginning in 1997-1998 that they 
would move in that direction. And as Mr. Yates has said, they 
have now lost all humility and they are actually implementing 
their anti-glasnost policy, not just in Hong Kong but across 
the entirety of their country. That is at the heart of what 
they are doing.
    So what from your perspective is the goal that China has 
for Hong Kong in 2047? What do they want to be the conditions 
under which the people in Hong Kong are living? Any of you.
    Mr. Yates. My presumption is, number one, they fully intend 
for the Communist Party of China to remain in total control of 
China by 2047. And I think that if we look back at the 
handover, at the close of the Cold War, it was inconceivable 
that a Communist Party was going to endure, even get stronger 
over time. But as far as their plans, they look for a ``One 
Country, One System''. They look for party first, ethnicity 
second, and then whatever is in their constitution----
    Senator Markey. But for Hong Kong, what does that mean?
    Mr. Yates. Hong Kong would be a part of one single Chinese 
system under communist control.
    Senator Markey. And their system would be the same as the 
system in Beijing or Shanghai----
    Mr. Yates. Correct. The one they impose upon everybody 
else. No more special status.
    Senator Markey. No special status, no special rights, no 
special freedoms.
    Mr. Yates. If we look at just the images of the pro-
Beijing, pro-communist agitators, not just in Hong Kong, they 
have attacked people in Australia who are demonstrating. They 
have attacked people in Canada who are demonstrating. There is 
a virulent nationalism that is spreading in China where they 
feel entitled and demanding of respect.
    Senator Markey. Do they feel that under the agreement that 
the people of Hong Kong have no choice but to live under rigid 
communist control by 2047? Do you think there is any wiggle 
room in that agreement toward achieving that goal?
    Mr. Yates. I think the Chinese Government has willfully 
disregarded the treaty as even being a treaty. And their 
decision tree, it seems to me, is first if you are ethnically 
Chinese, you owe your allegiance to us, whether you are a 
citizen of the United States, the United Kingdom, or anywhere 
else. And out of duty to us, you then must follow and respect 
the leaders of the party. We have a leader of the most populous 
authoritarian government who is afraid of Winnie the Pooh. If 
there are people who post images of Winnie the Pooh on social 
media associating with him, they literally get locked up.
    Senator Markey. So for Mr. Law, he has essentially 28 years 
to go--26 years to go before all of these freedoms are gone, 
and you will be alive, Mr. Law. You will be living in that 
world. So perhaps you could speak to how concerned you are 
about what is going to unfold if Mr. Yates is 100 percent 
correct.
    Mr. Law. Well, 2047 has always been a landmark for Hong 
Kong and a question that has been hanging in our hearts and 
minds about what the future of Hong Kong will be so that we 
propose a self-determination direction which we wanted to 
decide our own future. But, obviously, China has been so rigid 
about it.
    But I do believe that we have got 20-something years to 
change China. I do not think China is unchangeable. We need to 
have faith on that even though the past engagement policy they 
have been adopting seems like kind of futile in terms of 
transforming it into a more democratic nation. But I do believe 
that a change of China-U.S. policy and also the struggle of 
Hong Kong indeed help opening up China, and the way China has 
been supported by nationalism and economic success--these 
factors are declining. They are on a downturned roll of their 
own history. So I do believe that in that critical moment of 
time, if we join hands together, we can actually make something 
out of it.
    Senator Markey. So what is the role that you envision for 
the United States and other western nations in helping to 
advance your vision in terms of our relationship with China?
    Mr. Law. Well, of course, I do think that for a certain 
degree that the way we treat China has to see it as an expander 
of the authoritarian regime. They are actually eating up the 
fruits of democracy and sending out a totalitarian order to the 
rest of the world. So we have to be aware of that not only just 
to make business to them, but we need to have a value-
orientated policy to them.
    Senator Markey. Are you concerned that Donald Trump may be 
subordinating human rights issues to his trade deal objectives 
in the short run, and then that sends a signal to China that 
they can continue with business as usual with regard to Hong 
Kong?
    Mr. Law. Well, obviously, we do not know the results of the 
trade talk. But I do believe that if the administration is 
sending a strong signal on Hong Kong's protests, supporting 
them firmly, and urging Beijing to solve that puzzle, solve 
that question, solve that problem with a civilized way to honor 
their own words, I do believe it is a good start to show the 
world that, well, U.S. and China or the world and China--we are 
not just talking about business. We are talking about human 
rights and the things that matter to the billion population in 
mainland China and billions of population in the world. So I do 
believe that this is the direction to go, and I do believe that 
by the time of 2047, there is a possibility that we are no 
longer living in an authoritarian country.
    Senator Markey. Thank you. I appreciate it. Thank you for 
your courage, and thank all of you for expert testimony.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Mr. Yates, you also talked about our China strategy and how 
we rethink this. Senator Markey and I have passed and signed 
into law by the President a bill called the Asia Reassurance 
Initiative Act that builds on three things: national security; 
economic opportunity; rule of law, human rights, and democracy. 
And the state and foreign operations appropriations bill that 
is out of committee puts about $2.55 billion for the effort and 
the implementation of ARIA.
    I would love to get your feedback on that. Some of these 
resources will be used to help talk about democracy, to help 
with human rights conditions, to pursue awareness and civil 
society opportunities throughout Asia, and perhaps we can find 
ways to utilize here as well with this new opportunity through 
ARIA.
    Just a final thought and final question. Mr. Yates, I will 
direct it to you. If anybody wants to reply. What message, what 
lesson--and you mentioned a little bit of it earlier--does 
Taiwan take from what is happening in Hong Kong today?
    Mr. Yates. Well, thank you, Mr. Chairman.
    Very, very clearly there have been different histories for 
the people of Taiwan and the people of Hong Kong. Being a 
British colony is different than being a Japanese colony living 
under martial law and then coming up with your own democracy in 
Taiwan. There are different perspectives.
    And I would not characterize the relationship between the 
two peoples of having been particularly close over the decades.
    I think that perceptions and connections have profoundly 
changed in the images that the people of Taiwan have watched in 
recent months. I think there have been profound lessons 
learned. Number one, talk within Taiwan political circles about 
whether one can make a deal with the Communist Party of China 
to buy peace, even temporarily, is something that most voters 
of Taiwan are no longer willing to accept. It has fundamentally 
changed some of those perceptions. I think that the people of 
Taiwan feel a camaraderie, even are inspired by the courage of 
the people they have seen in Hong Kong stand up.
    And I think it is important to note that these people know 
that when they go to the streets--and while I admire the young 
people for doing it, we have a large cross section of Hong 
Kong's entire population doing it. They know that their images 
are scanned. They know that their identities are compromised. 
They know that they do not necessarily have to face a 
Tiananmen-like crackdown, that in due time of the government's 
own choosing, they may face some kind of retribution. So I 
think the people of Taiwan have truly admired the courage that 
they have witnessed of the people of Hong Kong to stand up.
    I think if Beijing was true about its professed desire for 
unification with Taiwan, it is going about it all wrong. What 
they are doing I just think reinforces the determination of the 
people of Taiwan to go their own way. And to the extent that 
there are people in the American policy community or elsewhere 
that think that that is a problem, they need to work with their 
friends in Beijing to change what has been done because no 
force has driven the Taiwan people further away from some 
affinity toward China than have the actions by the Communist 
Party and its leadership.
    Senator Gardner. Thank you.
    Dr. Martin, did you wish to add anything to that?
    Dr. Martin. Yes, I would.
    In my testimony, I referred to ``One Country, Two 
Systems,'' a model that was originally developed for use with 
Taiwan. And it would seem the actions of recent days would 
indicate to Taiwan that ``One Country, Two Systems'' may not be 
a desirable model. And therefore, those in Taiwan who support 
separatism from the mainland are not interested in 
reunification in any form probably are feeling a little more 
emboldened politically in Taiwan.
    Some things that I have seen about the upcoming 
Presidential elections indicate that China may have really 
helped out the prospects for President Tsai to get reelected. 
And China has a habit, it seems, of doing things not very 
deftly, to get contrary results to what they want by showing 
their hands in a certain way.
    And then to bring it into Hong Kong--and I do see similar 
trends in Taiwan--you are seeing this development of a separate 
entity from the sort of global Chinese. Interviews that I have 
done, regular surveys in Hong Kong about how they identify 
themselves--increasingly people just say [Chinese spoken]. I am 
a Hong Konger. No reference to China. No reference to being 
Chinese. The surveys offer the opportunity to say [Chinese 
spoken] in Cantonese. They do not do that very much anymore.
    And the last time I was in Taiwan, which was a few years 
ago, I saw a similar attitude emerging in the younger 
generation. They do not identify themselves as Chinese anymore. 
They are Taiwanese.
    And so my final comment is there is kind of this tension 
socially, culturally that I see in Hong Kong and in Taiwan of 
developing a separate identity from the greater China concept, 
but at the same time, the mainland economy becoming more 
infiltrated into or engaged in in both Hong Kong, Taiwan, and 
elsewhere. Senator Markey referred to perestroika and glasnost, 
and those of us old enough to remember when that was an issue, 
perestroika has a down side sometimes. If perestroika allows 
these economies to get influence and power within the country, 
then those governments can use that economic influence for 
political means and other means.
    And in Hong Kong, back in 1997 when I was working for the 
Trade Development Council, this is one of the things we talked 
about. Would this opening up of mainland China subjugate the 
Hong Kong economy to the mainland economy so that the desire 
for Hong Kong to have a high degree of autonomy would be 
undermined? And I would be concerned that that may be a reality 
or becoming a reality in Hong Kong. And I know in Taiwan, there 
are political figures who are extremely concerned about the 
same thing.
    Senator Gardner. Thank you, Dr. Martin.
    Mr. Law, last word. I am going to close out the hearing 
here. Anything you would like to add?
    Mr. Law. Well, thanks, Chairman Gardner, for having this 
hearing. I do believe that it means a lot to the Hong Kong 
people because the intense attention to the Hong Kong situation 
shows that the free societies are watching and the ways that 
the Chinese Communist Party has been doing on Hong Kong is 
definitely proof that its ruthlessness and also atrocity will 
not be treasured by the global community and you will react 
enough--well, concrete actions. And these are a vital 
importance for Hong Kong people. Thank you.
    Senator Gardner. Thank you, Mr. Law. And when it comes to 
your fight for freedom, your fight for autonomy, and the 
opportunities you stand for, we are all Hong Kongers. Thank you 
very much for being here.
    Thank you to everyone for attending today's hearing and to 
the witnesses, obviously, for your testimony.
    For the information of members, the record will be open 
until the close of business on Monday, including for members to 
submit questions for the record. I would kindly ask that you 
would respond as quickly as possible, should those be submitted 
for record. Those answers will be made a part of the record.
    And again, with the thanks of this committee, the hearing 
is now adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]

                        [all]
</pre></body></html>
